                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

     Case Number: A05090064                                                                    Page 1 of 1



          The grant' that is the focus of this case was part of OIG Investigation's proactive review of
          human subjects with in the Research Experiences for Undergraduates program. Our concern in
          this case stemmed from statements in the grant's annual report about the work of two
          undergraduates. The descriptions suggested that both may be conducting research that could fall
          under the Common Rule. We contacted the grantee. It provided a detailed description of each
          student's project and stated that one was a "paper" exercise and the other used public information
          available on the Internet. No human subjects were used in either project. In addition the
          Director of                     2 for the grantee stated that the co-PI on the award had assured the
          grantee that no human subjects were involved in the project.

          In the absence of any human subjects work, this case is closed.




I'
 NSF OIG Fom 2 (1 1/02)
